ECONOMIC
DEVELOPMENT
ADMINISTRATION
Malware Infections
on EDA’s Systems
Were Overstated
and the Disruption
of IT Operations
Was Unwarranted

FINAL REPORT NO. OIG-13-027-A
JUNE 26, 2013



U.S. Department of Commerce
Office of Inspector General
Office of Audit and Evaluation

FOR PUBLIC RELEASE
                                                        UNITED STATES DEPARTMENT OF COMMERCE
                                                        Office of Inspector General
                                                        Washington, D.C. 20230




June 26, 20 13

MEMORANDUM FOR:               Matthew Erskine
                              Deputy Assistant Secretary of Commerce
                               for Economic Development
                              Economic Development Administration

                              Simon Szykman
                              Chief Information ~                   r~

FROM:                        Allen Crawley                         G   A
                             Assistant Inspector General for Systems Acquisition
                              and IT Security

SUBJECT:                     Malware Infections on EDA's Systems Were Overstated
                              and the Disruption of IT Operations Was Unwarranted
                              Final Report No. OIG-13-027-A

Attached is the final report of our audit of EDA's information security program and cyber
incident response. In accordance with the Federal Information Security Management Act, we
evaluated EDA's incident response and recovery activities in relation to EDA's fiscal year 20 12
cyber incident. We (I) assessed the effectiveness of EDA's IT security program, (2) determined
the significant factors that contributed to its incident, and (3) evaluated both completed and
planned activities to recover its information systems to support critical operational
requirements.

We found (I) EDA based its critical incident response decisions on inaccurate information, (2)
deficiencies in the Department's incident response program impeded EDA's incid~nt response,
and (3) misdirected planning efforts hindered EDA's IT system recovery.

In response to the draft audit report, EDA and the CIO concurred w ith all of our
recommendations. We summarized the responses in the report and included the full response
in the appendixes. We will post this report on the OIG website pursuant to section 8L of the
Inspector General Act of 1978, as amended.

Under Department Administrative Order 213-5, you have 60 calendar days from the date of
this memorandum to submit an audit action plan to us. The plan should outline actions you
propose to take to address each recommendation.

We appreciate the cooperation and courtesies extended to us by your staff during our audit.
Please direct any inquiries regarding this report to me at (202) 482-1855 and refer to the
report title in all correspondence.
Attachment

cc: 	   Thomas Guevara, Deputy Assistant Secretary for Regional Affairs, EDA
        Rod Turk, Director, O ffice of Cyber Security, and Chief Information Security Officer
        Chuck Benjamin, Chief Information Officer, EDA
        Deborah Neff, Audit liaison, EDA
        Cara Huang, Audit Liaison, Office of the Chief Information Officer
                                                       Report In Brief                                               JUNE 26, 2013



                                                  ECONOMIC DEVELOPMENT ADMINISTRATION
Background
The Economic Development Admin-
                                                  Malware Infections on EDA’s Systems Were Overstated
istration’s (EDA’s) mission is to lead            and the Disruption of IT Operations Was Unwarranted
the federal economic development
agenda by promoting innovation and                OIG-13-027-A
competitiveness, thus preparing Ameri-
can regions for growth and success in             WHAT WE FOUND
the worldwide economy. To fulfill its
mission, EDA uses six regional offices            Reviewing EDA’s IT security program and the events surrounding its December 2011 cyber
to provide services specific to each              incident and recovery efforts, we found that:
region’s needs.
                                                    EDA Based Its Critical Cyber-Incident Response Decisions on Inaccurate Information. Believing
In accordance with the Federal Infor-               (a) the incident resulted in a widespread malware infection possibly propagating within its
mation Security Management Act of 2002              systems and (b) its widespread malware infection could spread to other bureaus if its IT
(FISMA), we evaluated EDA’s incident                systems remained connected to the network, EDA decided to isolate its IT systems from
response and recovery activities in relation        the HCHB network and destroy IT components to ensure that a potential infection could
to EDA’s fiscal year 2012 cyber incident.           not persist. However, OIG found neither evidence of a widespread malware infection nor
                                                    support for EDA’s decision to isolate its IT systems from the HCHB network.
Why We Did This Review
                                                    Deficiencies in the Department’s Incident Response Program Impeded EDA’s Incident Response.
On December 6, 2011, the Department                 These deficiencies significantly contributed to EDA’s inaccurate belief that it experienced a
of Homeland Security (DHS) notified the             widespread malware infection. Consequently, the Department of Commerce Computer
Department of Commerce that it detect-
                                                    Incident Response Team (DOC CIRT) and EDA propagated inaccurate information that
ed a potential malware infection within
                                                    went unidentified for months after EDA’s incident. We found that DOC CIRT’s incident
the Department’s systems. The Depart-
ment determined the infected compo-                 handlers did not follow the Department’s incident response procedures, that its handler for
nents resided within IT systems operat-             EDA’s incident did not have the requisite experience or qualifications, and that DOC CIRT
ing on the Herbert C. Hoover Building               did not adequately coordinate incident response activities.
(HCHB) network and informed EDA and                 Misdirected Efforts Hindered EDA’s IT System Recovery. With its incorrect interpretation of
another agency of a potential infection in
                                                    recovery recommendations, EDA focused its recovery efforts on replacing its IT
their IT systems.
                                                    infrastructure and redesigning its business applications. EDA should have concentrated its
On January 24, 2012—believing it had a              resources on quickly and fully recovering its IT systems (e.g., critical business applications) to
widespread malware infection—EDA                    ensure its operational capabilities. Our review of EDA’s recovery activities found that
requested the Department isolate its IT             (a) EDA decided to replace its entire IT infrastructure based on its incorrect interpretation
systems from the HCHB network. This                 of recovery recommendations and (b) EDA’s recovery efforts were unnecessary.
action resulted in the termination of
EDA’s operational capabilities for enter-         The Department, using already existing shared IT services, returned EDA’s systems to their
prise e-mail and Web site access, as well as      former operational capabilities (except for access to another Departmental agency’s financial
regional office access to database applications   system) in just over 5 weeks of starting its effort.
and information residing on servers connect-
ed to the HCHB network.                           WHAT WE RECOMMEND
Given the Department’s limited incident           We recommend that the Deputy Assistant Secretary for EDA:
response capabilities and the perceived
extent of the malware infection, the                1. 	 Identify EDA’s areas of IT responsibility and ensure the implementation of required 

Department and EDA decided to aug-                       security measures.

ment the Department’s incident re-                  2. 	 Determine whether EDA can reduce its IT budget and staff expenditures, through the
sponse team. Additional incident re-                     increased efficiencies of EDA’s involvement in the Department’s shared services.
sponse support was provided by DHS,
the Department of Energy, the National              3. 	 Ensure that EDA does not destroy additional IT inventory that was taken out of service
Institute of Standards and Technology,                   as a result of this cyber incident.
and the National Security Agency, as well
                                                  We recommend that the Department’s Chief Information Officer:
as a cybersecurity contractor. In early
February 2012, EDA entered into an                  1. 	 Ensure DOC CIRT can appropriately and effectively respond to future cyber incidents.
agreement with the Census Bureau to
                                                    2. 	 Ensure incident response procedures clearly define DOC CIRT as the incident response
provide an interim e-mail capability, In-
ternet access to EDA staff, and Census                   coordinator for the bureaus relying on DOC CIRT’s incident response services.
Bureau surplus laptops for EDA staff.               3. 	 Ensure that DOC CIRT management has proper oversight and involvement in cyber
                                                         incidents to ensure that required incident response activities take place.
  DEPARTMENT OF COMMERCE
U.S.                                                                                                                 OFFICE OF INSPECTOR GENERAL


Contents 

Introduction .......................................................................................................................................................1
 
Findings and Recommendations ....................................................................................................................3
 
   I.	  EDA Based Its Critical Cyber-Incident Response Decisions on Inaccurate Information .....3
 
       A.	  Inaccurate Analysis and a Misunderstanding Caused EDA’s Perception of a 

            Widespread Malware Infection.....................................................................................................4
 
       B.	  EDA’s Belief That Its Malware Infection Was Spreading Heavily Influenced Its 

            Decision to Isolate Its IT Systems................................................................................................6
 
       C.	  EDA’s Severely Deficient IT Security Program Gave Credibility to the Purported 

            Widespread Malware Infection.....................................................................................................7
 
       D.	  EDA Sought Validation of a Sophisticated Cyber Attack .......................................................9
 
       E.	  External Incident Responders Found No Evidence of a Widespread Malware 

            Infection or Extremely Persistent Malware ...............................................................................9
 
       Conclusion .............................................................................................................................................. 10
 
   II.	  Deficiencies in the Department’s Incident Response Program Impeded EDA’s 

         Incident Response .............................................................................................................................. 11
 
       A.	  DOC CIRT Did Not Follow Incident Response Procedures ............................................. 12
 
       B.	  DOC CIRT’s Inexperienced Staff Hindered EDA’s Incident Response ........................... 13
 
       C.  DOC CIRT Did Not Adequately Coordinate EDA’s Incident Response Activities...... 13
 
       Conclusion .............................................................................................................................................. 14
 
   III.	  Misdirected Efforts Hindered EDA’s IT System Recovery ....................................................... 14
 
       A.	  EDA Acted on Its Incorrect Interpretation of Recovery Recommendations ................. 14
 
       B.	  EDA’s Recovery Efforts Were Unnecessary .......................................................................... 15
 
       Conclusion .............................................................................................................................................. 16
 
Recommendations ............................................................................................................................................ 17
 
Summary of Agency and Departmental Responses and OIG Comments ........................................ 18
 
Appendix A: Objectives, Scope, and Methodology ................................................................................ 19
 
Appendix B: Detailed Timeline of EDA’s Cyber Incident Response and Recovery ....................... 21
 
Appendix C: Agency Response................................................................................................................... 24
 
Appendix D: Departmental Response ...................................................................................................... 28
 




FINAL REPORT NO. OIG-13-027-A
  DEPARTMENT OF COMMERCE
U.S.                                                                             OFFICE OF INSPECTOR GENERAL


Introduction
The Economic Development Administration’s (EDA’s) mission is to lead the federal economic
development agenda by promoting innovation and competitiveness, thus preparing American
regions for growth and success in the worldwide economy. To fulfill its mission, EDA uses six
regional offices1 to provide services specific to each region’s needs.

On December 6, 2011, the U.S. Computer Emergency Response Team (US-CERT)—a part of
the Department of Homeland Security (DHS)—notified the Department of Commerce
Computer Incident Response Team (DOC CIRT2) that it detected a potential malware
infection3 within the Department’s systems. DOC CIRT determined the infected components
resided within IT systems operating on the Herbert C. Hoover Building (HCHB) network.
Accordingly, DOC CIRT informed EDA and the National Oceanic and Atmospheric
Administration (NOAA) of a potential infection in their IT systems. NOAA’s Computer
Incident Response Team analyzed the information provided by DOC CIRT and identified the
infected component. NOAA remediated the malware infection and placed the remediated
component back into operation by January 12, 2012.

By contrast, on January 24, 2012—believing it had a widespread malware infection—EDA
requested the Department isolate its IT systems from the HCHB network. This action resulted
in the termination of EDA’s operational capabilities for enterprise e-mail and Web site access,
and regional office access to database applications and information residing on servers
connected to the HCHB network.

Given DOC CIRT’s limited incident response capabilities and the perceived extent of the
malware infection, the Department and EDA decided to augment the DOC CIRT’s incident
response team. Additional incident response support was provided by US-CERT, the
Department of Energy (DOE) Computer Incident Response Team, the National Institute of
Standards and Technology (NIST) Security Implementation and Incident Response Team, and
the National Security Agency (NSA). In addition, EDA retained the services of a cybersecurity
contractor.

In early February 2012, EDA entered into an agreement with the Census Bureau to provide an
interim e-mail capability, Internet access to EDA staff, and Census Bureau surplus laptops for
                                                            
1
  Regional offices are located in Atlanta, GA; Austin, TX; Chicago, IL; Denver, CO; Philadelphia, PA; and Seattle,
WA.
2
  The DOC CIRT provides computer incident response support to most of the Department’s operating units that
use the Herbert C. Hoover Building network—an Office of the Chief Information Officer-managed infrastructure
that many of the bureaus, like EDA, connect to for Department services, Internet connectivity, and communication
infrastructure support for internal system operation. Incident response services include interfacing with and
reporting incidents to and from the US-CERT, performing malware analysis, interfacing with the Department’s
network and security operations centers to coordinate changes in network configuration or monitoring resulting
from an incident, and providing remediation guidance.
3
  Malware is software used by attackers to disrupt computer operation, gather sensitive information, or gain access
to computer systems. In EDA’s incident, the notification indicated the presence of fake antivirus (FakeAV)
software, which deceives a user into executing an application masquerading as antivirus or a malware removal tool.


FINAL REPORT NO. OIG-13-027-A                                                                                     1
  DEPARTMENT OF COMMERCE
U.S.                                                                            OFFICE OF INSPECTOR GENERAL

EDA staff. See appendix B for a detailed timeline of events for EDA’s cyber-incident response
and recovery.

In accordance with FISMA,4 we evaluated EDA’s incident response and recovery activities in
relation to EDA’s fiscal year (FY) 2012 cyber incident. We (1) assessed the effectiveness of
EDA’s IT security program, (2) determined the significant factors that contributed to the
incident, and (3) evaluated both completed and planned activities to recover its information
systems to support critical operational requirements. See appendix A for details regarding our
objectives, scope, and methodology.


 




                                                            
4
  The Federal Information Security Management Act of 2002 (FISMA), 44 U.S.C § 3541 (2002), et seq., requires
agencies to secure systems through the use of cost-effective management, operational, and technical controls. The
statute’s goal is to provide adequate security commensurate with the risk and extent of harm resulting from the
loss, misuse, or unauthorized access to or modification of information collected or maintained by or on behalf of
an agency. In addition, FISMA requires inspectors general to evaluate agencies’ information security programs and
practices by assessing a representative subset of agency systems, and results are reported to the Office of
Management and Budget, the Department of Homeland Security, and Congress annually.


FINAL REPORT NO. OIG-13-027-A                                                                                       2
  DEPARTMENT OF COMMERCE
U.S.                                                                               OFFICE OF INSPECTOR GENERAL


Findings and Recommendations 

As part of our annual FISMA work, we reviewed EDA’s IT security program and the events
surrounding its December 2011 cyber incident and recovery efforts. We found that (1) EDA
made key incident response and recovery decisions with inaccurate information, (2) DOC
CIRT’s insufficient incident response efforts degraded the quality of EDA’s incident response,
and (3) EDA’s misdirected efforts hindered the recovery of its IT systems.

    I.	       EDA Based Its Critical Cyber-Incident Response Decisions on Inaccurate
              Information

       EDA believed the incident resulted in a widespread malware infection that was possibly
       propagating within its systems. Furthermore, EDA believed that its widespread malware
       infection could spread to other bureaus if its IT systems remained connected to the
       network, so EDA decided to isolate its IT systems from the HCHB network.

       OIG found no evidence to support EDA’s beliefs. Specifically, we found no evidence of a
       widespread malware infection. Further, we found no evidence to support EDA’s decision to
       isolate its IT systems from the HCHB network.

       The perception of a widespread malware infection and EDA’s incident response decisions
       are attributable to several factors:
           	 DOC CIRT’s inaccurate analysis and a misunderstanding caused EDA’s perception of a
              widespread malware infection.
           	 EDA believed that the malware infection would spread to other bureaus on the
              HCHB network.
           	 Serious long-standing deficiencies in EDA’s IT security program gave credence to
              EDA’s belief that it experienced a widespread malware infection.

           	 EDA’s belief in its widespread malware infection led it to seek validation of a
              sophisticated cyber attack.5

           	 EDA based its recovery decisions on its belief that it faced a widespread malware
              infection that included extremely persistent malware.6




                                                            
5
  A sophisticated cyber attack typically involves the use of attack techniques, such as exploiting previously unknown
vulnerabilities, to successfully compromise a component.

6
  Extremely persistent malware cannot be eradicated by reimaging the infected system’s hard drive (e.g., malware that

infects a device’s firmware in order for the infection to persist).



FINAL REPORT NO. OIG-13-027-A                                                                                       3
  DEPARTMENT OF COMMERCE
U.S.                                                                               OFFICE OF INSPECTOR GENERAL

       A.	 Inaccurate Analysis and a Misunderstanding Caused EDA’s Perception of a Widespread
           Malware Infection

              EDA believed that a cyber attack resulted in an extensive malware infection affecting
              over half of its components.7 This belief originated on the first day of incident response
              activities when DOC CIRT sent EDA inaccurate information concerning the extent of
              the malware infection, which overstated the number of components involved.
              Additionally, EDA misunderstood DOC CIRT’s follow-up communications, which
              accurately described the limited extent of the infection. Even though additional
              communications occurred between DOC CIRT and EDA, each organization continued
              to have a different understanding of the extent of the malware infection.

                      DOC CIRT’s first incident notification was misleading. On December 6, 2011,
                      US-CERT alerted DOC CIRT to suspicious activity, which involved EDA’s systems,
                      on the HCHB network. In an effort to identify infected components, DOC CIRT’s
                      incident handler requested network logging information. However, the incident
                      handler unknowingly requested the wrong network logging information (see finding
                      II, subfinding B, for more information on the incident handler). Consequently, on
                      December 7, 2011, DOC CIRT sent an e-mail incident notification to EDA (in
                      response to US-CERT’s alert) that inaccurately described the extent of the potential
                      malware infection. Instead of providing EDA a list of potentially infected
                      components, the incident handler mistakenly provided EDA a list of 146
                      components8 within its network boundary. Accordingly, EDA believed it faced a
                      substantial malware infection.

                      DOC CIRT’s mistake resulted in a second incident notification. Early on
                      December 8, 2011, an HCHB network staff member informed DOC CIRT that the
                      incident handler’s request for network logging information did not identify the
                      infected components. Rather, the response merely identified EDA components
                      residing on a portion of the HCHB network (i.e., the listing of 146 components
                      initially provided to EDA). The HCHB network staff member then performed the
                      appropriate analysis identifying only two components exhibiting the malicious
                      behavior in US-CERT’s alert. With this new information, DOC CIRT sent EDA a
                      second e-mail incident notification.

                      DOC CIRT’s second incident notification was vague. DOC CIRT’s second
                      incident notification did not clearly explain that the first incident notification was
                      inaccurate. As a result, EDA continued to believe a widespread malware infection
                      was affecting its systems. Specifically, the second incident notification

                         	 Began by stating the information previously provided about the incident was correct.
                            EDA interpreted the statement as confirmation of the first incident
                                                            
7
 EDA’s IT system was comprised of approximately 250 IT components (e.g., desktops, laptops, and servers).
8
 The first incident notification contained an attachment with 146 distinct potentially infected components. DOC
CIRT, EDA, and external incident responders reported numbers ranging from 142 to 148 components, but the
accurate count from the incident notification is 146 components.


FINAL REPORT NO. OIG-13-027-A                                                                                      4
  DEPARTMENT OF COMMERCE
U.S.                                                                               OFFICE OF INSPECTOR GENERAL

                                 notification, when DOC CIRT’s incident handler simply meant to confirm EDA
                                 was the agency identified in US-CERT’s alert. Nowhere in the notification or
                                 attachment does the DOC CIRT incident handler identify that there was a
                                 mistake or change to the previously provided information.
                         	 Contained an attachment name that further obscured any clarification. Although the
                            incident notification’s attachment correctly identified only 2 components
                            exhibiting suspicious behavior—not the 146 components that DOC CIRT
                            initially identified—the name of the second incident notification’s attachment
                            exactly matched the first incident notification’s attachment, obscuring the
                            clarification.

                      DOC CIRT and EDA’s misunderstanding continued. Over the next 5 weeks,
                      additional communications occurred between DOC CIRT and EDA. However, each
                      organization continued to have a different understanding of the extent of the
                      malware infection. DOC CIRT believed the incident affected only two components,
                      whereas EDA believed the incident affected more than half of its components.
                      Several factors contributed to these different interpretations:
                         	 DOC CIRT assumed EDA understood that its second incident notification
                            superseded the first incident notification and that there were only 2 potentially
                            infected components—not 146. However, DOC CIRT did not follow up to
                            establish whether EDA understood the new information.
                         	 EDA responded to the second incident notification by providing a sample of
                            two components (on the list identified in the first incident notification and that
                            were exhibiting malicious behavior) for forensic analysis. DOC CIRT believed
                            the sample to be the same two components identified in the second incident
                            notification.
                         	 When DOC CIRT confirmed that the sample of 2 components was infected
                            with malware, EDA believed that DOC CIRT had confirmed the malware
                            infection for all 146 components listed in the first incident notification.
                         	 DOC CIRT did not retain the first incident notification showing 146
                            components or document initial incident response activities. Therefore, when
                            DOC CIRT management became involved in the incident response activities,
                            they could not see that a misunderstanding had occurred.
              When DOC CIRT asked EDA to carry out typical containment measures (reimaging9
              the infected components), EDA informed DOC CIRT there were too many
              components involved making typical containment measures unfeasible. DOC CIRT
              assumed EDA performed an independent analysis to identify additional infected
              components (even though EDA lacked the necessary capabilities) and assumed EDA was
              now dealing with a widespread malware infection. Likewise, EDA assumed DOC CIRT
              was aware of the incident’s magnitude, given that DOC CIRT provided the list of

                                                            
9
 Reimaging is the process of reinstalling the operating system and applications on a hard drive, as well as restoring
the necessary information from known good backups.


FINAL REPORT NO. OIG-13-027-A                                                                                           5
  DEPARTMENT OF COMMERCE
U.S.                                                                            OFFICE OF INSPECTOR GENERAL

              infected components in its first incident notification. Now, EDA and DOC CIRT were
              operating with the same—albeit inaccurate—belief.

              Unfortunately, both organizations continued to propagate the inaccurate information
              (the basis for the widespread malware infection) during the incident response activities.
              DOC CIRT’s representation of the extent of the malware infection was accepted by
              DHS and not independently validated in its draft report. DHS’s draft report stated,
              “over 143 systems infected with common fake anti-virus” and “50 percent of EDA’s
              network is infected,”10 which portrayed a widespread malware infection. The NSA
              report stated that “the EDA network was extremely inundated with malware” and “the
              extent of the compromise and the state of the overly infected network will make it very
              difficult to deconflict the vast amount of indicators.”11 NSA did not independently verify
              incident information, but it presented similar information to that presented by DHS as
              fact. As a result, EDA believed these incident reports12 supported its conclusion
              regarding the extent of the malware infection.

              The misunderstanding went undetected by EDA until December 18, 2012—and by the
              Department until December 19, 2012—when OIG completed its validation of events
              and informed both organizations of its initial conclusions.

       B.	 EDA’s Belief That Its Malware Infection Was Spreading Heavily Influenced Its Decision to
           Isolate Its IT Systems

              On January 24, 2012, EDA, at the recommendation of EDA’s current chief information
              officer (CIO), decided to isolate EDA’s IT systems from the HCHB network. EDA’s
              CIO believed that (1) EDA experienced a widespread malware infection, (2) the
              malware infection was spreading within EDA’s IT systems, and (3) the malware infection
              could spread to other bureaus residing on the HCHB network. Specifically, EDA’s CIO
              believed that an antivirus scan of EDA’s primary e-mail server indicated multiple
              malware infections and the malware infection could propagate to other bureaus on the
              HCHB network. However, we found no evidence to support these beliefs. Specifically,

                  	 There was no widespread malware infection. EDA based its conclusion on inaccurate
                     information (see finding 1, subfinding A).

                  	 There was no indication of an infection in the e-mail server. Our analysis of the e-mail
                     server’s antivirus logs showed that the antivirus software was up-to-date (e.g., with

                                                            
10
   U.S. Department of Homeland Security, National Cyber Security Division, February 7, 2012. Strategic Remediation
Strategy for Department of Commerce/Economic Development Administration, Draft Version 1.0. Washington, DC: DHS
National Cyber Security Division, 1. DHS did not issue a final version of its report.
11
   National Security Agency, Computer Network Operations Countermeasures Division, Information Assurance
Directorate, May 15, 2012. IAD Intrusion Response of Department of Commerce Economic Development Administration,
I3331-004R-2012. Ft. Meade, MD: NSA, 4.
12
   NIST did not issue an incident response report. DOE’s incident report addressed the results of an assessment
on one component—analysis indicated trace evidence of an attempted infection but no extremely persistent
malware—not the incident as a whole.


FINAL REPORT NO. OIG-13-027-A                                                                                    6
  DEPARTMENT OF COMMERCE
U.S.                                                                              OFFICE OF INSPECTOR GENERAL

                         the most current software version and latest malware definitions), was scanning
                         weekly, and had not identified any malware. Not only was EDA’s CIO unable to
                         substantiate his assertion with credible evidence, EDA’s IT staff did not support
                         the assertion of an infection in the e-mail server.

                  	 The e-mail server did not pose an increased risk. EDA’s outbound e-mail traffic does
                     not pass through any other e-mail systems before reaching the Internet; therefore,
                     the infection would not have spread the way EDA’s CIO believed. Further, e-mail
                     traffic in general does not pose a risk to an e-mail server, as infected e-mail
                     attachments typically require user interaction. Additionally, the Department has
                     security measures to address infected e-mail attachments. Thus, EDA’s e-mail
                     server did not pose an increased risk, even if it had been infected.

       C.	 EDA’s Severely Deficient IT Security Program Gave Credibility to the Purported Widespread
           Malware Infection

              Since 2006, OIG has identified significant deficiencies in EDA’s IT security program.
              NSA’s 2009 review13 further emphasized these deficiencies with the discovery of
              multiple common malware14 infections. We reviewed EDA’s IT security program after
              its incident and found that many of the deficiencies identified in past reviews remained
              unremediated for more than 4 years (see table 1 below for examples of deficient
              security measures).

 




                                                            
13
  In 2009, NSA reviewed security measure implementations on IT systems operating on the HCHB network.
14
  Common malware (e.g., spyware, virus, or Trojans), although typically malicious and potentially harmful, can be
removed using common cleaning tools and processes (e.g., reimaging).


FINAL REPORT NO. OIG-13-027-A                                                                                       7
  DEPARTMENT OF COMMERCE
U.S.                                                                                    OFFICE OF INSPECTOR GENERAL

                 Table 1. Examples of EDA’s Long-Standing Security Deficiencies
                                                                                                            Deficiencies
                                                                                                            Identified In
          Security
                                           Definition                          Significance                   OIG and
          Measure
                                                                                                               NSA
                                                                                                              Reviewsa
                                                                      Without effective secure
                                                                      configurations, an organization
                                The processes an organization         will not effectively limit            2006, 2009,
                                uses to define how to secure its IT   unauthorized use of its               2010, 2012: EDA
          Secure                products (e.g., operating systems,    components. Securely                  had not defined
          Configurations        databases, and web applications)—     configuring IT products is a          or implemented
                                limiting the functions of a           fundamental and critical security     this security
                                component to minimal operations       measure (one of DHS’s and             measure.
                                                                      NSA’s key recovery
                                                                      recommendations to EDA).
                                                                                                            2009, 2010,
                                                                      Without effective patch
                                                                                                            2012: EDA did
                                The processes an organization         management, vulnerabilities can
                                                                                                            not reliably
          Patch                 uses to track and correct software    remain unremediated, leaving
                                                                                                            trackb or correct
          Management            (e.g., operating system and           components vulnerable to
                                                                                                            vulnerabilities
                                application) vulnerabilities          compromise and information
                                                                                                            (some for many
                                                                      less secure.
                                                                                                            years).
                                                                      Without effective auditing and
                                                                      monitoring, an organization may
                                                                                                            2006, 2012: EDA
                                The processes and tools used to       not be able to track
                                                                                                            did not monitor
          Auditing and          detect the use of systems and         unauthorized access to
                                                                                                            for suspicious
          Monitoring            information by an unauthorized        components and information,
                                                                                                            activity in its
                                user or external attackers            follow an attacker’s activities, or
                                                                                                            systems.
                                                                      reconstruct what happened
                                                                      when an incident occurs.
                                                                                                            2006, 2010,
                                                                      Without the appropriate               2012: EDA’s
                                                                      assessment of security                assessment
                                                                      mechanisms, organizations will        methodologies
                                Assessments performed to              not have an accurate picture of       did not
          Security
                                determine the extent of security      the risks to the system and           appropriately
          Assessments
                                mechanism implementation              management will not have the          identify
                                                                      information necessary to make         deficiencies or
                                                                      appropriate risk-based                convey risks to
                                                                      decisions.                            operations and
                                                                                                            information.
        Source: OIG FISMA reviews from 2006, 2010, and 2012 and NSA’s 2009 review
        a Not all security mechanisms were assessed in the course of each OIG FISMA review or in NSA’s 2009 review.
        b Prior to May 2011, EDA’s systems had not been scanned for almost a year. When scans resumed, they identified

        over 35,000 potential vulnerabilities. Scans performed in December 2011, just prior to the incident, indicated that
        EDA was struggling to remediate these vulnerabilities. OIG’s post-incident review found 37 percent (56 of 151) of the
        vulnerabilities highlighted by the NSA in 2009 still exist—the NSA asserted in its incident response report that EDA
        did not address remediation recommendations from the NSA’s 2009 assessment of EDA’s IT systems.

        EDA’s current CIO joined the organization in April 2011. The CIO inherited an IT
        security program suffering from longstanding and significant security deficiencies. For
        example, the CIO briefed EDA leadership that (1) EDA IT staff lacked appropriate IT
        security skills, (2) system configuration management and secure configurations were not
        implemented, and (3) systems were not appropriately monitored.




FINAL REPORT NO. OIG-13-027-A                                                                                                   8
  DEPARTMENT OF COMMERCE
U.S.                                                                                OFFICE OF INSPECTOR GENERAL

              The Department and EDA15 knew of EDA’s many IT security program deficiencies;
              therefore, they more readily believed there was a widespread malware infection.
              Further, when external incident responders analyzed the incident, they too observed
              pervasive deficiencies—the result of too few implemented IT security mechanisms.
              Their observations further reinforced the credibility of a widespread malware infection.
              Furthermore, the pervasive deficiencies led the Office of the Chief Information Officer
              (OCIO) and EDA not to question the accuracy of the extent of the malware infection,
              despite a lack of supporting evidence.

       D.	 EDA Sought Validation of a Sophisticated Cyber Attack

              EDA hired a cybersecurity contractor—in addition to other external agencies already
              responding to the incident—to perform an in-depth evaluation of the malware infection
              in its systems. EDA’s CIO and senior leadership were specifically concerned about
              nation-state actors16 and the presence of extremely persistent malware that would
              prohibit typical containment measures, such as reimaging infected components for
              immediate use.

              On January 30, 2012, EDA’s cybersecurity contractor began looking for suspicious
              activity and malware infections. Preliminary analysis found indications of extremely
              persistent malware and suspicious activity on EDA’s components. EDA immediately
              acted upon this preliminary information and began an investigation of its entire IT
              component inventory for potential infections.

       E.	 External Incident Responders Found No Evidence of a Widespread Malware Infection or
           Extremely Persistent Malware

              Within 2 weeks of beginning its incident response activities, EDA’s cybersecurity
              contractor found the initial indications of extremely persistent malware were false
              positives—not actual malware infections. However, EDA’s CIO sought guaranteed
              assurance that the components were infection-free and no malware could persist.
              External incident responders were unable to provide the assurance EDA’s CIO sought,
              because doing so involved proving that an infection could not exist rather than that one
              did not exist. By April 16, 2012, despite months of searching, EDA’s cybersecurity
              contractor was unable to find any extremely persistent malware or indications of a
              targeted attack on EDA’s systems. Further, the NSA and US-CERT did not find nation-
              state activity or extremely persistent malware.

              On May 15, 2012, EDA’s management determined that the forensics investigation was
              unlikely to yield new evidence and instead focused on cleaning its data17 and other

                                                            
15
   The Department’s annual internal IT reviews have identified IT security deficiencies in EDA’s IT security
program.
16
   Nation-state actors are hackers acting on behalf of a nation’s government to engage in nefarious activity, such as
cyber war and theft of intellectual property.
17
   Cleaning involves using several antivirus products to scan data files for indications of an infection.


FINAL REPORT NO. OIG-13-027-A                                                                                           9
  DEPARTMENT OF COMMERCE
U.S.                                                                           OFFICE OF INSPECTOR GENERAL

              recovery activities. Ultimately, incident responders identified only six components18 with
              malware infections. These malware infections could have been remediated using typical
              containment measures (e.g., reimaging), which normally have a minimal operational
              impact. Additionally, EDA’s cybersecurity contractor’s data cleaning efforts did not
              identify any additional components with a malware infection (the contractor did identify
              the existence of common malware contained in archived e-mail attachments and
              temporary Internet browser files19). Typically, antivirus software prevents common
              malware from executing; as a result, the contractor did not consider the malware a
              threat to EDA’s components.

              Given EDA’s history of common malware infections (the NSA identified common
              malware on EDA’s IT systems in its 2009 review), there was a high probability that
              external incident responders would find some malware infections when investigating
              EDA’s incident. In fact, EDA’s lack of implemented IT security and the significant number
              of easily exploitable vulnerabilities negated an attacker’s need to use costly attack
              techniques (sophisticated cyber attacks) to compromise EDA’s systems. EDA’s deficient
              IT security posture made it likely that external incident responders would find common
              malware. In the end, nothing identified on EDA’s components posed a significant risk to
              EDA’s operations.

              However, EDA’s CIO concluded that the risk, or potential risk, of extremely persistent
              malware and nation-state activity (which did not exist) was great enough to necessitate
              the physical destruction of all of EDA’s IT components.20 EDA’s management agreed
              with this risk assessment and EDA initially destroyed more than $170,000 worth of its
              IT components,21 including desktops, printers, TVs, cameras, computer mice, and
              keyboards. By August 1, 2012, EDA had exhausted funds for this effort and therefore
              halted the destruction of its remaining IT components, valued at over $3 million. EDA
              intended to resume this activity once funds were available. However, the destruction of
              IT components was clearly unnecessary because only common malware was present on
              EDA’s IT systems.

Conclusion

       Since EDA did not validate the information (e.g., number of infected components and
       potentially spreading malware infection) it used to make its key decisions, it unnecessarily
       expended a large portion of its IT budget and many months investigating its incident and
       planning for the recovery of its IT systems. Despite only finding common malware
                                                            
18
   External incident responders identified six infected components, two with rootkits (software that enables a
persistent infection) and four with common malware—including the two components DOC CIRT identified.
19
   Web browsers store on the IT component’s hard drive the information downloaded from each Web page
visited to enhance browser performance. Although the industry labels this information “temporary,” the
information remains on the component’s hard drive until manually deleted.
20
   Prior to the incident, EDA purchased laptops intended as replacements for its current desktop and laptop
environment. Because these new laptops had not been operational, EDA could incorporate them into its new IT
systems.
21
   EDA tracks the acquisition value, rather than the depreciated value, of its components.


FINAL REPORT NO. OIG-13-027-A                                                                                    10
  DEPARTMENT OF COMMERCE
U.S.                                                                                       OFFICE OF INSPECTOR GENERAL

         infections, EDA’s management and CIO remained convinced that there could be extremely
         persistent malware somewhere in EDA’s IT systems.
         To recover from its perceived widespread malware infection, EDA took the following 

         significant recovery steps:

            	 Employed a cybersecurity contractor to investigate the malware infection and ensure
               its important data was free of malware
            	 Entered into an agreement with the Census Bureau to provide EDA with an interim,
               minimalistic IT solution22
            	 Physically destroyed IT components to ensure that a potential infection could not
               persist
            	 Employed a contractor to assist in the development of a long-term recovery solution
     EDA expended more than $2.7 million—over half of EDA’s FY 2012 IT budget (see table 2
     below for expenditures and finding 3 for further discussion of recovery activities) in pursuit of
     these recovery activities. EDA’s persistent mistaken beliefs resulted in an excessive response
     and ultimately unnecessary expenditure of valuable resources.

                                       Table 2. Significant Recovery Activity Expenditures

                                                               Activity                            Expenditurea

            Cybersecurity contractor investigation of malware infection and data
                                                                                                     $823,000
            cleaning
            Temporary infrastructure, pending long-term IT solution                                 $1,061,000
                                                         b
            Destruction of IT equipment                                                              $175,000
            Contractor assistance for a long-term recovery solution                                  $688,000
                                                                          TOTAL EXPENDITURES        $2,747,000

     Source: Contracts from EDA’s recovery efforts 

     a
       All values in the table are rounded. 

     b
       EDA paid $4,300 to destroy $170,500 in IT equipment—these are rounded values. 


     II.	      Deficiencies in the Department’s Incident Response Program Impeded 

               EDA’s Incident Response 


         Deficiencies in HCHB’s incident response program (DOC CIRT) significantly contributed to
         EDA’s inaccurate belief that it experienced a widespread malware infection; consequently,
         DOC CIRT and EDA propagated inaccurate information that went unidentified for months
         after EDA’s incident.

         We found the following deficiencies in DOC CIRT’s incident response activities:
                                                            
22
  EDA did not intend for the Census Bureau to provide a final IT recovery solution. Instead, the Census Bureau
provided an interim solution that met EDA’s minimum operating requirements until EDA could develop a
permanent solution.


FINAL REPORT NO. OIG-13-027-A                                                                                      11
  DEPARTMENT OF COMMERCE
U.S.                                                                          OFFICE OF INSPECTOR GENERAL

           	 DOC CIRT’s incident handlers did not follow the Department’s incident response
              procedures.
           	 DOC CIRT’s incident handler for EDA’s incident did not have the requisite 

              experience or qualifications.23

           	 DOC CIRT did not adequately coordinate incident response activities.

       A.	 DOC CIRT Did Not Follow Incident Response Procedures

              When responding to EDA’s incident, DOC CIRT staff did not appropriately follow
              incident response procedures. Specifically, DOC CIRT staff did not (1) properly
              document the initial incident response activities, (2) establish the extent of the malware
              infection, and (3) perform a required containment procedure.

                      DOC CIRT did not properly document the initial incident response activities.
                      We found DOC CIRT did not document its communications with EDA or record
                      pertinent incident details like requests, actions taken, or analysis results. For
                      example, the incident handler deleted the first incident notification showing 146
                      potentially infected components and retained only the second incident notification
                      showing 2 potentially infected components. Had the incident handler documented all
                      information, per the Department’s incident response procedures, it would have
                      been more likely that other DOC CIRT staff or external incident responders could
                      have identified the misunderstanding regarding the extent of the malware infection.
                      As a result, EDA, the Department, and external incident responders would not have
                      needed to expend resources to resolve a widespread malware infection that did not
                      exist.

                      DOC CIRT did not accurately establish the extent of the malware infection.
                      We found that DOC CIRT staff did not appropriately establish the extent of the
                      malware infection prior to proceeding with other incident response activities (e.g.,
                      conducting forensic analysis). The Department’s incident response procedures
                      require that incident handlers establish the extent of an infection before proceeding
                      with other incident response activities so that all involved in the incident response
                      efforts can formulate realistic containment and mitigation strategies. Since DOC
                      CIRT did not accurately establish the extent of EDA’s incident, EDA’s
                      misunderstanding (e.g., EDA thought there were 146 infected components instead of
                      only 2) influenced everyone’s perception of the incident and contributed to EDA’s
                      unnecessary recovery and remediation activities.

                      DOC CIRT did not appropriately perform a required containment procedure.
                      When HCHB network staff correctly determined that US-CERT’s alert involved two
                      components, DOC CIRT’s incident handler should have followed the Department’s
                      required containment procedure. Specifically, the incident handler should have
                                                            
23
  The Space and Naval Warfare Systems Command (SPAWAR), a Department of the Navy organization, provided
the OCIO cybersecurity technical support—including an incident handler—specified in an interagency agreement
that ended on February 8, 2012.


FINAL REPORT NO. OIG-13-027-A                                                                             12
  DEPARTMENT OF COMMERCE
U.S.                                                                                 OFFICE OF INSPECTOR GENERAL

                      directed HCHB security operations center staff to block HCHB network activity
                      associated with the malicious address identified in US-CERT’s alert. Furthermore, on
                      December 15, 2011, EDA reminded DOC CIRT’s incident handler to block the
                      malicious address. However, DOC CIRT did not initiate this action until January 24,
                      2012, the same day EDA’s systems were isolated from the HCHB network.

       B.	 DOC CIRT’s Inexperienced Staff Hindered EDA’s Incident Response

              DOC CIRT’s inexperienced staff and inadequate knowledge of EDA’s incident response
              capabilities24 hindered its ability to provide adequate incident response services. DOC
              CIRT’s incident handler managing EDA’s initial incident response activities had minimal
              incident response experience, no incident response training, and did not have adequate
              skills to provide incident response services. The lack of experience, training, and skills
              led the incident handler to request the wrong network logging information (i.e., perform
              the wrong incident analysis), which led EDA to believe it had a widespread malware
              infection, and deviate from mandatory incident response procedures. The Department’s
              Office of the Chief Information Officer should have ensured that all DOC CIRT staff
              met the Department’s minimum incident response qualifications.

              In addition, DOC CIRT staff did not understand that there was a preexisting
              expectation of specific incident response services, as outlined in the service level
              agreement (SLA) between the DOC CIRT and EDA. This agreement clearly states DOC
              CIRT’s obligated incident response services (e.g., investigation, forensics, and reverse
              engineering) and defines EDA’s incident response responsibilities (e.g., reporting
              incidents and dealing with quarantined or deleted malware). Since DOC CIRT staff did
              not understand this agreement, they inaccurately assumed EDA was capable of
              performing its own incident analysis activities (e.g., determining the extent of the
              malware infection).

       C.	 DOC CIRT Did Not Adequately Coordinate EDA’s Incident Response Activities

              DOC CIRT is responsible for coordinating incident response efforts (e.g., dissemination
              of information and coordination of incident response activities). However, DOC CIRT
              did not effectively coordinate EDA’s incident response activities. The inadequate
              coordination resulted in haphazard communications, in which external incident
              responders received minimal direction. As a result,
                  	 External incident responders performed redundant forensics analysis on the same
                     components. External incident responders unnecessarily and wastefully expended
                     resources to develop the same conclusions.
                  	 The quality of EDA’s incident response suffered. DOC CIRT and EDA did not use
                     external incident responders’ technical knowledge and experience to their fullest
                     potential.
                                                            
24
  Each Departmental bureau has designated incident responders and its own set of internal incident response
capabilities. The skill level (as gauged by an incident responder’s training, certifications, and previous incident
response experience) and the tools available within each bureau differ.


FINAL REPORT NO. OIG-13-027-A                                                                                         13
  DEPARTMENT OF COMMERCE
U.S.                                                                      OFFICE OF INSPECTOR GENERAL

             	 Gaining a full understanding of EDA’s incident was difficult. Inadequate coordination
                resulted in undirected incident response efforts and uncoordinated distribution of
                pertinent incident information, making it difficult to gain a holistic and unbiased
                view of the incident.

Conclusion

        OIG briefed the Department’s CIO on weaknesses within the DOC CIRT that we identified
        during our review of incident response activities. Accordingly, the Department has taken
        actions to correct DOC CIRT’s weaknesses. Specifically, the Department is taking steps to:
         	 Ensure staff receive appropriate training
         	 Update incident response procedures
         	 Review services offered (including the needs and capabilities of each bureau)
         	 Develop agreements with external agencies to provide incident response expertise
         	 Hire experienced incident handlers

 III.      Misdirected Efforts Hindered EDA’s IT System Recovery

        Based on EDA’s erroneous belief that it had a widespread malware infection, and its
        incorrect interpretation of recovery recommendations, EDA focused its recovery efforts on
        replacing its IT infrastructure and redesigning its business applications. EDA should have
        concentrated its resources on quickly and fully recovering its IT systems (e.g., critical
        business applications) to ensure its operational capabilities.

        Our review of EDA’s recovery activities found the following:

         	 EDA decided to replace its entire IT infrastructure based on its incorrect 

            interpretation of recovery recommendations. 


         	 EDA’s recovery efforts were unnecessary.

        A.	 EDA Acted on Its Incorrect Interpretation of Recovery Recommendations

           EDA received similar recovery recommendations from NSA and DHS that focused on
           quickly recovering IT services (e.g., reimaging infected components), implementing
           security mechanisms and best practices, and monitoring its recovered IT systems for
           suspicious activity. These recovery recommendations, conventional practices used to
           recover from a cyber incident, were appropriate for EDA’s recovery.

           EDA’s continued belief in the necessity of permanent remediation actions (i.e.,
           destroying its IT components) and a significant malware infection contributed to EDA
           incorrectly interpreting the recovery recommendations. EDA erroneously interpreted
           one of DHS’s draft recommendations—“a complete network rebuild is
           recommended”—as both prescriptive guidance and direct support for its decision to


FINAL REPORT NO. OIG-13-027-A                                                                       14
  DEPARTMENT OF COMMERCE
U.S.                                                                          OFFICE OF INSPECTOR GENERAL

              replace its entire IT infrastructure. However, DHS’s full draft recommendation advised
              EDA to reimage all IT components and implement required security measures,
              effectively rebuilding its network. Neither DHS’s nor NSA’s recommendations provided
              a basis for EDA’s decisions to replace its IT infrastructure and destroy its IT
              components.

       B.	 EDA’s Recovery Efforts Were Unnecessary

              Despite recovery recommendations from DHS and NSA advising EDA to focus on
              quickly and fully recovering its IT systems, EDA focused instead on building a new,
              improved IT infrastructure and redesigning its business applications. In September 2012
              (8 months after isolation), EDA leadership presented to the Commerce IT Review
              Board (CITRB) a request to reprogram funds to carry out its recovery efforts; the
              CITRB did not approve EDA’s request.25 EDA estimated it would need over $26 million
              disbursed in the next 3 years (an increase from $3.6 million to approximately $8.83
              million, or about 2.5 times more, to the bureau’s average annual IT budget) to fund its
              recovery efforts. However, EDA’s intended recovery efforts

                  	 Had a fundamental flaw in acquiring funding. EDA leadership did not understand that
                     the funds it requested to reprogram—over $17 million originally designated for
                     public works and disaster recovery—would actually need to be “repurposed.”26
                  	 Had an unrealistic time frame for acquiring requested funding. The request’s time
                     frame would have required EDA to gain approval by October 2012 in order to
                     maintain the intended schedule. This was an extremely aggressive time frame,
                     given the process (in which CITRB approval was the first step) and time necessary
                     to attain proper clearance to use the funds.
                  	 Would leave EDA reliant on a less effective grants management process. EDA users
                     would only have limited access to critical business applications. EDA was not
                     scheduled to complete development of replacement applications until the end of
                     FY 2014 (more than 2 years after isolation).

                  	 Conflicted with the Department’s ongoing development of a grants management shared
                     service. EDA’s request for funding to redesign its business applications overlapped
                     with the Department’s development of a grants management shared service.

              Further, the following contradicted the direction of EDA’s recovery efforts:




                                                            
25
   The CITRB provides oversight, review, and advice to the Secretary and Deputy Secretary on both IT and non-IT
investments that meet certain criteria. This advice includes recommendations for approval or disapproval of
funding for new systems and investments, as well as major modifications to existing systems and investments.
26
   According to EDA, it would have needed Departmental and OMB approval of its request to fund its recovery
efforts before presenting the request to Congress. EDA would also have needed to request that Congress change
the law dictating the original purpose and use of the funds requested.


FINAL REPORT NO. OIG-13-027-A                                                                                15
  DEPARTMENT OF COMMERCE
U.S.                                                                            OFFICE OF INSPECTOR GENERAL

                  	 External incident responders identified only common malware that could be easily
                     mitigated. As a result, there was no need for EDA to destroy or replace existing IT
                     components.

                  	 NSA found no malware infection in the servers hosting EDA’s primary business
                     application. Additionally, there was no evidence to suggest that EDA’s primary
                     business application had been targeted by a cyber attack or maliciously altered—
                     thus, EDA could have put the application back into full operation.

Conclusion

       Although EDA intended to use federal government shared services or outsourced
       commercial services during its recovery efforts, EDA had not finalized a recovery solution.
       Further, the Department had existing shared IT services (e.g., image for rebuilding infected
       components, enterprise e-mail, and help desk services) that were readily available to EDA.
       However, only after OIG informed the Department and EDA that there was no widespread
       malware infection, and therefore no significant incident, did the Department and EDA enact
       a swift recovery of EDA’s IT systems using the Department’s shared services.

       Once it started recovery efforts in February 2013, the Department needed only a little
       longer than 5 weeks to restore EDA’s former operational capabilities.27 By comparison,
       EDA’s incomplete efforts spanned almost a year. Specifically, the Department provided EDA
       with enterprise e-mail, account management services, help desk support services, and a
       securely configured and uniform image for its laptops. Additionally, the Department
       restored EDA users’ access to critical business applications.

       For the time being, EDA will retain responsibility for maintaining its business applications;
       however, it may in the future use the Department’s grants management services. With the
       Department developing and maintaining the IT systems, there is a greater likelihood that the
       Department will appropriately implement the required security measures (e.g., secure
       configurations, auditing and monitoring, and patch management) that EDA struggled to
       implement. Fortunately, for EDA, its involvement in the Department’s shared services
       initiatives not only restored its critical IT systems and business applications, but should also
       reduce its IT budgetary requirements.

 




                                                            
27
     EDA’s previous access to NOAA’s financial system has yet to be restored.


FINAL REPORT NO. OIG-13-027-A                                                                           16
  DEPARTMENT OF COMMERCE
U.S.                                                                OFFICE OF INSPECTOR GENERAL


Recommendations
    We recommend that the Deputy Assistant Secretary for EDA:

      1.	 Identify EDA’s areas of IT responsibility and ensure the implementation of required
          security measures.

      2.	 Determine whether EDA can reduce its IT budget and staff expenditures, through the
          increased efficiencies of EDA’s involvement in the Department’s shared services.

      3.	 Ensure that EDA does not destroy additional IT inventory that was taken out of
          service as a result of this cyber incident.

    We recommend that the Department’s Chief Information Officer:

      1.	 Ensure DOC CIRT can appropriately and effectively respond to future cyber incidents.

      2.	 Ensure incident response procedures clearly define DOC CIRT as the incident
          response coordinator for the bureaus relying on DOC CIRT’s incident response
          services.

      3.	 Ensure that DOC CIRT management has proper oversight and involvement in cyber
          incidents to ensure that required incident response activities take place.




FINAL REPORT NO. OIG-13-027-A                                                                   17
  DEPARTMENT OF COMMERCE
U.S.                                                                OFFICE OF INSPECTOR GENERAL


Summary of Agency and Departmental
Responses and OIG Comments
The Deputy Assistant Secretary of Commerce for Economic Development and the
Department’s Chief Information Officer (CIO) provided written responses to a draft of this
report (see appendixes C and D). We provide summaries of these responses and our
comments below.

EDA Response

The Deputy Assistant Secretary of Commerce for Economic Development concurred with our
recommendations and noted that EDA has begun implementation of the recommendations.

EDA also noted that (1) EDA’s focus has been to fully and efficiently recover its IT systems, (2)
it has been abundantly cautious in its efforts to protect its staff, other Department systems,
grantees, clients, and other federal partners, (3) it continued to conduct and complete its
important work on time despite the interruption, and (4) it worked closely with the Census
Bureau for an interim recovery solution and, more recently, leveraged the Department’s shared
services. EDA’s response identified corrective actions it has taken and plans to take to
implement our recommendations.

EDA stated in its response that it “appreciates the Office of Inspector General’s (OIG)
comprehensive review and continued involvement from the very early days of the incident
when EDA proactively requested OIG’s review of the matter.” While we initiated this audit at
the request of the former Acting Deputy Secretary of Commerce, we appreciate EDA’s
cooperation throughout our audit.

In its response, EDA noted that its long-term recovery plan already included greater use of
shared services by leveraging Department-wide IT assets. However, prior to our briefing on
December 18, 2012, EDA had not finalized a recovery solution, such as using the Department’s
available shared services.

Department CIO Response

The Department’s CIO concurred with our recommendations related to DOC CIRT, noting
that the Department has initiated a comprehensive incident response improvement project.
The CIO further stated that the following project milestones have already been completed: (1)
conducting a third-party assessment of the DOC CIRT policies, procedures, and capabilities; (2)
hiring experienced and certified incident handlers; and (3) implementing an improved incident
tracking system.

In addition, the Department’s CIO stated that, within the past 6 months, the OCIO and the
Office of the Secretary (OS) IT Operations worked closely with EDA to restore its
functionality by bringing EDA’s grants management system online and bringing EDA’s office
automation and IT service desk under the OS Information Technology Services.


FINAL REPORT NO. OIG-13-027-A                                                                  18
  DEPARTMENT OF COMMERCE
U.S.                                                                 OFFICE OF INSPECTOR GENERAL


Appendix A: Objectives, Scope, and
Methodology
Our objective was to evaluate EDA’s information security program and its recovery activities in
relation to EDA’s cyber incident. We (1) assessed the effectiveness of EDA’s IT security
program, (2) determined the significant factors that contributed to the incident, and (3)
evaluated both completed and planned activities to recover its information systems to support
critical operational requirements. To do so, we

  	 Reviewed system-related artifacts, including policy and procedures, planning documents,
     and other material supporting the security authorization process

  	 Reviewed artifacts related to EDA’s incident, including incident reports, forensic analysis,
     logs, written communications, and other incident documentation

  	 Interviewed operating unit and Department OCIO personnel, including system owners, IT
     security officers, IT administrators, external incident responders, and organizational
     directors and administrators regarding the security and operation of EDA’s IT systems
     and the incident

We also reviewed EDA’s compliance with the following applicable provisions of law,
regulations, and mandatory guidance:

  	 The Federal Information Security Management Act of 2002

  	 Information Technology Security Program Policy, U.S. Department of Commerce,
     introduced by the Chief Information Officer on March 9, 2009, and applicable Commerce
     Information Technology Requirements

  	 NIST Federal Information Processing Standards Publications

      o	 199, Standards for Security Categorization of Federal Information and Information
         Systems

      o	 200, Minimum Security Requirements for Federal Information and Information Systems

    	 NIST Special Publications

      o	 800-34, Contingency Planning Guide for Federal Information Systems

      o	 800-37, Guide for Applying the Risk Management Framework to Federal Information
         Systems

      o	 800-53, Recommended Security Controls for Federal Information Systems and
         Organizations


FINAL REPORT NO. OIG-13-027-A                                                                       19
  DEPARTMENT OF COMMERCE
U.S.                                                               OFFICE OF INSPECTOR GENERAL

      o 800-53A, Guide for Assessing the Security Controls in Federal Information Systems

      o 800-61, Computer Incident Handling Guide

      o 800-70, Security Configuration Checklists Program for IT Products

We conducted our fieldwork from June 2012 to February 2013. We performed this audit
under the authority of the Inspector General Act of 1978, as amended, and Department
Organization Order 10-13, and in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions.




FINAL REPORT NO. OIG-13-027-A                                                                 20
  DEPARTMENT OF COMMERCE
U.S.                                                                 OFFICE OF INSPECTOR GENERAL


Appendix B: Detailed Timeline of EDA’s Cyber
Incident Response and Recovery
Cyber Incident

12/6/2011        US-CERT notifies DOC CIRT of a cyber incident (components communicating
                 with fake antivirus sites).

12/7/2011        DOC CIRT sends EDA a first incident notification concerning US-CERT’s alert.
                 The notification contains an inaccurate list of 146 potentially infected
                 components.

12/8/2011        DOC CIRT sends EDA a second incident notification containing completed
                 analysis that identified only two infected components.

12/9/2011        EDA’s ITSO informs EDA’s CIO that EDA experienced a potential widespread
                 malware infection.

12/13/2011       EDA’s ITSO requests forensic assistance from DOC CIRT and on 12/14/2011
                 EDA provided DOC CIRT with the hard drives from two components that were
                 exhibiting malicious behavior.

12/15/2011       EDA asks DOC CIRT to block the malicious sites and addresses associated with
                 the US-CERT alert.

12/16/2011       EDA’s CIO informs EDA’s leadership that the malware infection is potentially
                 widespread.

1/18/2012        DOC CIRT notifies EDA that it identified a common malware infection on the
                 two components EDA provided to DOC CIRT on 12/14/2011. DOC CIRT
                 advises EDA to reimage the infected drives and put the remediated components
                 back into operation. EDA informs DOC CIRT that it cannot do this because
                 there are too many infected components.

1/20/2012        EDA’s CIO notifies EDA’s user base of the malware infection and advises that all
                 users follow good security practices. DOC CIRT requests US-CERT’s assistance
                 and US-CERT arrives onsite.

1/24/2012        EDA’s CIO believes that the e-mail server experienced a complete operational
                 failure and, upon restoration, an antivirus scan showed multiple malware
                 infections. EDA’s CIO informed EDA’s leadership (and the Department’s Deputy
                 CIO) of the need to isolate EDA from the HCHB network. EDA takes the
                 following actions: disables its Microsoft Exchange e-mail server connection;
                 disables Internet access; disables its connection with regional offices; and
                 maintains local file-share service availability.


FINAL REPORT NO. OIG-13-027-A                                                                   21
  DEPARTMENT OF COMMERCE
U.S.                                                                     OFFICE OF INSPECTOR GENERAL

1/27/2012        DOE and NIST incident responders assist onsite with the incident response.

1/30/2012        EDA hires a cyber security contractor to assist at the EDA CIO’s discretion. US-
                 CERT issues a preliminary analysis report, which indicates the presence of
                 common malware but no nation-state activity or extremely persistent malware.

2/2/2012         The Department requests NSA’s assistance to investigate the malware infection.

2/3/2012         DOE releases its report detailing assessment results from an assessment of one
                 component that indicated a common malware infection, but did not identify any
                 nation-state activity or extremely persistent malware.

2/7/2012         DHS issues a report that summarizes its findings and includes recommendations
                 for remediating the infection and establishing good IT security practices.
                 Additionally, the report used inaccurate information provided by DOC CIRT to
                 portray EDA’s incident as widespread.

2/14/2012        NSA assists onsite with incident response activities.

2/17/2012        NSA analysis of the Linux systems finds no evidence of an intrusion or malware
                 infection.

5/15/2012        NSA releases a report stating that EDA had a widespread common malware
                 infection. NSA portrayed this information as fact, even though it did not
                 independently validate the information it received from DHS. However, NSA did
                 analyze EDA’s Linux servers and found that the servers were not infected and
                 there was no indication of nation-state activity or extremely persistent malware.

Recovery

1/24/2012        EDA operates its existing IT infrastructure in isolation during interim recovery
                 activities in order to meet its deadlines for grants management.

2/6/2012         EDA begins coordination with the Census Bureau on its interim recovery
                 activities.

2/14/2012        EDA establishes a Web presence and makes e-mail service available to a limited
                 number of Blackberry users.

3/25/2012        The Census Bureau restores Blackberry service for all EDA staff and EDA
                 completes the distribution of laptops to all users. This provides office
                 automation capabilities, e-mail services, and Internet access for all users.

4/5/2012         EDA provides users access to a stand-alone implementation of its business
                 applications, which contains historical data necessary to complete its mission
                 activities.




FINAL REPORT NO. OIG-13-027-A                                                                       22
  DEPARTMENT OF COMMERCE
U.S.                                                                     OFFICE OF INSPECTOR GENERAL

5/15/2012        EDA stops its forensic analysis activities and switches to full-time data cleaning,
                 involving the use of several antivirus products to scan data files for indications of
                 an infection. The cybersecurity contractor did not identify any additional
                 components with a malware infection (the contractor did identify the existence
                 of common malware contained in archived e-mail attachments and temporary
                 Internet browser files).

9/5/2012         EDA presents a request to the Commerce IT Review Board (CITRB) for funding
                 to carry out its recovery efforts. The CITRB does not approve EDA’s request,
                 necessitating changes to the intended recovery efforts.

2/6/2013         OCIO begins restoration of EDA’s IT systems.

3/15/2013        OCIO restores EDA’s IT operations, including restoring access for all users to
                 its critical grants management applications.
 




FINAL REPORT NO. OIG-13-027-A                                                                        23
  DEPARTMENT OF COMMERCE
U.S.                                OFFICE OF INSPECTOR GENERAL


Appendix C: Agency Response 





                                 




FINAL REPORT NO. OIG-13-027-A                               24
  DEPARTMENT OF COMMERCE
U.S.                                OFFICE OF INSPECTOR GENERAL




                                                      

                                 




FINAL REPORT NO. OIG-13-027-A                               25
  DEPARTMENT OF COMMERCE
U.S.                                                                                                 OFFICE OF INSPECTOR GENERAL



             ~lt:MORANDUM HlR ASSISliiNT I'~ PECTOR GENERAL roR SYSTEM ACQIJISI110'1 M·D 11 SI:.C'IIRil Y
             Jun< 12. 2013
             P~~ge I of 2



             Attachment

             In response to the 20 ll cyber incident, EDA took proactive measures to increase the security and
             efficiency of its Information and Technology (IT) system: ensure quality service to all its
             stakeholders and clients; and enable accow1tability by requesting the Oflice of lnsp....--ctor General
             (OIG) evaluate the agency's response and recovery activities.


             RccQmmendation I: Identify EDA's areas of IT responsibility a nd en ure th e
             implementation of required security measures.

             EDA Response:              EDA agrees with this recommendation.

             Corrective Ac.:tion To Date:

                   l.        EDA transferred a majority of its IT responsibilities to the Department of Commerce
                             (DOC). Oftice of Chief Infonnation Officer (OCIO). In addition. EDA ·sLoan Billing
                             and Managing System (LBMS) has been transferred to the National Oceanic and
                             Atmospheric Administration (NOAA). The c actions have resulted in a significantly
                             more eflicicnt and higher level of overall IT operations and security.

                             EDA has identified two remaining areas of IT responsibi lity: Operations Planning and
                             Control System (OPCS) and the Revolving Loan Fund Management System
                             (RLFYIS). EDA has maintained a high· leve l of security with each of these systems
                             and will continue to do so as the agency works with OAA to transfer system
                             funct ionality to NOAA's secure environment.

                  2.         EDA has implemented a program to increase the security trai ning and capabilities of
                             all staff. especially the agency' s IT staff. By October 2012. EDA had successfully
                             ensured that eight of its I I OfT e mployees had achieved DOC IT ecurity Role
                             Cenitications. With these ceni fication . EDA has achieved I00 percent compliance
                             "ith the DOC IT Security Role Ceni fications. In addition. EDA has currently
                             completed 94 percent of the required FY 2013 IT Security Role-Based Training for
                             all of the agency's staff members and expects to reach 100 percent prior to the June
                             30 deadline.

             Continued Action:

                   I.        EDA will contiJ1UC its current work with NOAA 10 transfer its remaining two areas of
                             IT responsibility, OPCS and RLFMS. to NOAA's secure environment.

                  2.         EDA and the DOC will reinstate the Oversight leering Committee to review and
                             provide guidance on IT security.

                                                                                                                       




FINAL REPORT NO. OIG-13-027-A                                                                                                26
  DEPARTMENT OF COMMERCE
U.S.                                                                                             OFFICE OF INSPECTOR GENERAL



             O,l f MORANDIJM fOR D~ PlrrY 11'-SP~C: I OR GE ... ERAl ~OR AIJDI rAND EVALUATION
             J~n< 11. 2013
             Page 2 ol 2

             Recommendation 2: Determine whether EDA can reduce its IT b udget and staff
             expenditures, through the increased efficiencies of EDA 's involvement in the Department's
             shared services.

             El)A Response:              EDA agrees with this recommendation.

             Corrective Action To Date:

                 EDA has carefully revie wed its IT expenditures since the 20 II cyber incident: and through
                 it usc of shared services, has increased the efficiency and security of its IT system. EDA 's
                 previously established long-tenn recovery plan already included greater use of shared
                 services by leveraging existing or planned dcpanmcnt-wide (including other bureau) IT
                 assets. As cost efficiencies are generated from its implementation of shared services. EDA 's
                 first priority will be to continue its work with the Depanment and bureaus to ensure that all
                 required and recommended security processes. procedures. software and services are fully
                 implemented.

             Continued Action:

                  EDA and the Depanment will reinstate the Oversight Steering Committee to review and
                  provide g uidance on IT cost savings and increased efficiencies.


             Recommendation 3: Ensure that EDA docs not d estroy additiona l IT invento ry that was
             ta ken out of scn ,icc as a result of this c:ybcr incident.

             E DA    l~cs po n se:       EDA agrees w ith this recommenda tion.

             Corrective Action To Date:

                  In an effon to secure its IT system due to the cyber incident. EDA replaced its IT
                  components with eq uipment on loan from the Bureau o f the Census. Upon migration of our
                  IT operations to the DOC HCHB network, EDA installed new equipment that had been
                  purchased Brim: to the cyber incident. Prior to the cyber incident. EDA had planned to clean
                  and surplus desktop computers and servers scheduled for replacement. As a result of this
                  repon and because very little of this equipment has been destroyed. EDA is able to continue
                  this planned action.

             Continued Action :

                  EDA still posse ses 96 percent of its replaced inventory and intends to either put that
                  inventory back into service or surplus the items.

                                                                                                                   




FINAL REPORT NO. OIG-13-027-A                                                                                            27
  DEPARTMENT OF COMMERCE
U.S.                            OFFICE OF INSPECTOR GENERAL


Appendix D: Departmental Response 





011200000142 



FINAL REPORT NO. OIG-13-027-A                           28
